No. 19-309
IN THE

Supreme Court of the United States
___________

JOHN C. CARNEY, GOVERNOR OF DELAWARE,
Petitioner,
v.
JAMES R. ADAMS,
___________

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
___________

BRIEF OF AMICI CURIAE FORMER CHIEF
JUSTICES OF THE DELAWARE SUPREME
COURT IN SUPPORT OF PETITIONER
___________

VIRGINIA A. SEITZ*
KATHLEEN MORIARTY MUELLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
vseitz@sidley.com
Counsel for Amici Curiae
October 7, 2019

* Counsel of Record

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES .................................

ii

INTEREST OF AMICI CURIAE ..........................

1

SUMMARY OF ARGUMENT ..............................

3

REASONS FOR GRANTING THE PETITION ...

6

I. THE DECISION THAT JUDGES MAY
NOT BE SELECTED BASED ON PARTY
AFFILIATION CALLS INTO QUESTION
STATE AND FEDERAL JUDICIAL SELECTION PROCESSES ..............................

6

II. THE THIRD CIRCUIT FUNDAMENTALLY MISUNDERSTOOD THIS COURT’S
PRECEDENTS AND WRONGLY INVALIDATED PROVISIONS OF THE DELAWARE CONSTITUTION THAT HAVE
PRODUCED AN EXCELLENT JUDICIARY ...............................................................

11

A. Delaware’s Political Balance Requirement Has Produced An Excellent Judiciary ..............................................................

11

B. The Third Circuit Misunderstood Elrod
and Branti And Failed To Respect Delaware’s Sovereign Right To Establish The
Qualifications Of Its Judges ....................

14

CONCLUSION .....................................................

18

(i)

ii
CASES

TABLE OF AUTHORITIES

Page

Branti v. Finkel, 445 U.S. 507 (1980) ....... 5, 6, 16
Burson v. Freeman, 504 U.S. 191 (1992) ......
16
Elrod v. Burns, 427 U.S. 347 (1976) .............
5
Gregory v. Ashcroft, 501 U.S. 452
(1991) ..................................................... 5, 14, 15
Kurowski v. Krajewski, 848 F.2d 767 (7th
Cir. 1988) ............................................ 11, 15, 17
Mistretta v. United States, 488 U.S. 361
(1988) ..........................................................
16
Newman v. Voinovich, 986 F.2d 159 (6th
Cir. 1993) ............................................ 10, 11, 17
Town of Greece v. Galloway, 134 S. Ct. 1811
(2014) ..........................................................
16
CONSTITUTION
Del. Const. art. IV, § 3...................................

3

RULE
Sup. Ct. R. 10.................................................

4

SCHOLARLY AUTHORITIES
Jonathan H. Adler, The Senate Has No
Constitutional Obligation to Consider
Nominees, 24 Geo. Mason L. Rev. 15
(2016) .......................................................... 7, 8
Tracey E. George, Judicial Independence
and the Ambiguity of Article III Protections, 64 Ohio St. L.J. 221 (2003) .............. 7, 8
Sheldon Goldman, Judicial Appointments
to the United States Courts of Appeals,
1967 Wis. L. Rev. 186 (1967) .....................
8

iii
TABLE OF AUTHORITIES—continued
Vicki C. Jackson, Packages of Judicial
Independence: The Selection and Tenure
of Article III Judges, 95 Geo. L.J. 965
(2007) ..........................................................
Leo E. Strine, Jr., The Delaware Way: How
We Do Corporate Law and Some of the
New Challenges We (and Europe) Face, 30
Del. J. Corp. L. 673 (2005) .........................
E. Norman Veasey, The Drama of Judicial
Branch Change in This Century, 17 Del.
Law. 4 (1999) ..............................................
E. Norman Veasey with Christine T. Di
Guglielmo, What Happened in Delaware
Corporate Law and Governance from
1992-2004? A Retrospective on Some Key
Developments, 153 U. Pa. L. Rev. 1399
(2005) ..........................................................

Page

7

13
13

13

OTHER AUTHORITIES
Alicia Bannon, Brennan Ctr. for Justice,
Choosing State Judges: A Plan for Reform
(2018), https://www.brennancenter.org/
sites/default/files/publications/2018_09_
JudicialSelection.pdf ................................. 8, 9
Rachel Baye, Ctr. for Pub. Integrity,
Donors, Friends of Governors Often Get
State Supreme Court Nod (May 19, 2014),
https://publicintegrity.org/federal-politics/
donors-friends-of-governors-often-get-statesupreme-court-nod .....................................
9
Jess Bravin, President Obama’s Supreme
Court Nomination of Merrick Garland
Expires, Wall St. J. (Jan. 3, 2017) .............
8

iv
TABLE OF AUTHORITIES—continued

Page

Douglas Keith & Laila Robbins, Brennan
Ctr. for Justice, Legislative Appointments
for Judges: Lessons from South Carolina,
Virginia, and Rhode Island (2017), https://
www.brennancenter.org/sites/default/files/
analysis/North_Carolina.pdf .....................
8
William H. Rehnquist, The Supreme Court
(1987) ...................................................... 6, 7, 17
Joseph T. Walsh & Thomas J. Fitzpatrick,
Jr., Judiciary: Article IV, in THE DELAWARE CONSTITUTION OF 1897: THE FIRST
ONE HUNDRED YEARS 130 (Harvey Bernard Rubenstein ed., 1997) ....................... 11, 12

INTEREST OF AMICI CURIAE1
Amici curiae are the Honorable Myron T. Steele
and the Honorable E. Norman Veasey, both former
Chief Justices of the Supreme Court of Delaware.
In 2000, Myron T. Steele (Democrat) was nominated to the Supreme Court of Delaware by Governor
Thomas Carper (Democrat). Governor Ruth Ann
Minner (Democrat) elevated him to the position of
Chief Justice in 2004, where he served until 2013. He
had previously served on the Superior Court of Delaware, as a judge of the Kent County Superior Court
and as Vice Chancellor of the Delaware Court of
Chancery. Prior to his appointment to the Superior
Court, he served as chair of the Democratic Party in
Kent County. He was appointed to the Kent County
Superior Court by Republican Governor Mike Castle
to maintain political balance, since the only other
judge of that court at the time was a Republican.
During his tenure as Chief Justice, he was President
of the Conference of Chief Justices and Chair of the
National Center for State Courts Board of Directors.
Former Chief Justice Steele teaches, speaks, and
publishes frequently on issues of corporate law.
In 1992, E. Norman Veasey (Republican) was nominated to be Chief Justice of the Supreme Court of
Delaware by Governor Mike Castle (Republican). He
served in that position until 2004, when his twelvePursuant to Supreme Court Rule 37, amici curiae state that
no counsel for any party authored this brief in whole or in part,
and that no entity or person other than amici curiae and their
counsel made any monetary contribution toward the preparation
and submission of this brief. Both petitioner and respondent
consented to the filing of this brief.
1

2
year term as Chief Justice expired. During his tenure
as Chief Justice, then-Governor Minner awarded
Chief Justice Veasey the Order of the First State, the
highest honor the Governor can bestow. Like Chief
Justice Steele, Chief Justice Veasey was President of
the Conference of Chief Justices and the Chair of the
National Center for State Courts Board of Directors.
He also teaches, speaks, and publishes frequently on
issues of corporate governance, ethics, and professionalism. He had previously served as Deputy Attorney General and Chief Deputy Attorney General of
the State of Delaware. From 2011 through 2013, he
served as Independent Counsel and Special Deputy
Attorney General to investigate campaign funding
law violations.
Both long-serving former Chief Justices have
lengthy and deep experience within the Delaware judiciary, in corporate law practice, and in public service for the State. They are uniquely positioned to
address the importance of the Delaware Constitution’s judicial-selection provisions to the State, its political culture and processes, and its judiciary. Notably, they have explained why that constitutional selection process embodies Delaware’s view of the appropriate balance between independence and democratic accountability in the judiciary. See infra pp. 1213. In addition, as former Presidents and Chairs of
national bodies of state judges, they can speak to the
legitimacy and importance of politics in the wide variety of judicial selection processes that different
States have employed since the Founding—processes
whose constitutionality is called into question by the
decision of the court of appeals under review.

3
SUMMARY OF ARGUMENT
The Delaware Constitution provides that judges are
appointed by the governor for twelve-year terms, subject to confirmation by a majority of the senate. Del.
Const. art. IV, § 3. The governor’s appointment power
is limited by the requirement that no more than a
“bare majority” of judges on the supreme court and
the principal lower courts may be affiliated with “one
major political party,” while the other judges “shall be
of the other major political party.” Id. The two major
political parties in Delaware today are the Democratic Party and the Republican Party. Thus, the practical effect of these provisions is to require the governor
to fill a judicial vacancy with a Democrat or a Republican, depending on the political affiliation of the other judges. This has been the lasting effect of the judicial selection system under the Delaware Constitution since 1897, a period of 122 years of bipartisan
and respected jurisprudence.
The Third Circuit readily acknowledged that these
provisions have given Delaware “an excellent judiciary” that has earned “nearly universal” praise for its
fairness, efficiency, and “‘national preeminence in the
field of corporation law.’”2 The court held, however,
that the provisions “must be stricken” from the
State’s Constitution. The court concluded that Delaware’s judicial selection process violates the First
Amendment of the U.S. Constitution by prohibiting
the governor from appointing a judge due to his or
Pet. App. 38a-39a (McKee, J., joined by Restrepo and
Fuentes, JJ., concurring) (quoting William H. Rehnquist, Chief
Justice of the U.S., Address at the Bicentennial of the Delaware
Court of Chancery (Sept. 18, 1982), The Prominence of the Delaware Court of Chancery in the State-Federal Joint Venture of
Providing Justice, in 48 Bus. Law. 351 (1992)).
2

4
her “affiliation with a particular political party.” Pet.
App. 29a, 35a. There are compelling reasons for this
Court to review that decision.
The Third Circuit acknowledged, and the Petition
shows, that the decision created a circuit split. Pet.
App. 27a; Pet. 13-18. This alone provides a strong
case for this Court’s review. See Sup. Ct. R. 10. Amici
show, moreover, that this Court’s review is independently warranted because the Third Circuit’s decision calls into question the constitutionality of the
processes for making judicial appointments to federal
and state courts throughout the nation.
The method used to achieve Delaware’s balanced
bipartisan judicial system—the selection of judges
based on party affiliation—is both widespread and
longstanding. From the founding of the country
through today, party affiliation has frequently—
indeed, almost universally—been used as a criterion
for selecting or rejecting judges within the United
States. In some states, judges are chosen by the voters in partisan elections. In others, judges are appointed by governors who often exercise their discretion to select or reject individual candidates based on
whether they are affiliated with, or supported by, a
particular party. Federal judges, too, are often selected by the President—and sometimes accepted or rejected by the Senate—on partisan grounds. See infra
pp. 6-8.
The rationale for the Third Circuit’s decision that
Delaware’s judicial selection process is unconstitutional—that it requires that a nominee be the member of a particular party—would render unconstitutional any system in which party affiliation is a prerequisite for nomination, whether that requirement is
imposed by positive law, or by the executive branch
official (the President, the governor) who makes the

5
nomination, or by the voters who pull the lever for a
judicial candidate based on his or her party affiliation. The Third Circuit’s decision thus calls into question virtually all judicial selection processes. See infra pp. 9-11.
This Court’s review is further warranted because
the Third Circuit fundamentally misunderstood—and
thus violated—this Court’s First Amendment jurisprudence and failed to respect Delaware’s sovereign
authority to structure its judiciary. The decision is
inconsistent with the Court’s analysis in Gregory v.
Ashcroft, 501 U.S. 452, 463 (1991), which instructs
federal courts to apply “less exacting” scrutiny to, and
thus give more deference to, state constitutional provisions establishing the qualifications of judges. Delaware’s constitutional judicial selection process is the
product of a thoughtful political choice. It has “historically produced an excellent judiciary,” Pet. App. 38a,
that is lauded for the competence and impartiality of
its judges, and has resulted in a centrist jurisprudence that enhances public confidence in the judiciary and yields significant benefits to the State as a
whole, infra pp. 11-13. The Third Circuit has invalidated Delaware’s longstanding judicial selection process in a decision that does not sufficiently respect
either the choice or its value. See infra pp. 11-14.
The decision also misunderstands this Court’s decisions in Elrod v. Burns, 427 U.S. 347 (1976) (plurality
opinion), and Branti v. Finkel, 445 U.S. 507 (1980).
Those decisions address when political party affiliation may be considered in selecting executive and legislative branch employees. They do not address the
relevant constitutional history and tradition of judicial appointments, which reflect the judgment that
judges should be accountable to the people (in varying degrees depending on the mode of selection) as

6
well as independent in the execution of their role.
Nothing in Elrod and Branti suggests that that
judgment and longstanding tradition violate the First
Amendment. To the contrary, Branti recognized that
it is appropriate to select precinct election judges
based on party affiliation. 445 U.S. at 518. Thus, the
Third Circuit’s decision is inconsistent with this
Court’s decisions, with devastating effect on Delaware and far-reaching implications for states and the
country as a whole. See infra pp. 14-17.
REASONS FOR GRANTING THE PETITION
I. THE DECISION THAT JUDGES MAY NOT
BE SELECTED BASED ON PARTY AFFILIATION CALLS INTO QUESTION STATE
AND FEDERAL JUDICIAL SELECTION
PROCESSES.
The means Delaware has chosen to achieve a politically balanced judiciary—the selection of judges
based on party affiliation—is common practice in
most other states and in the federal system. The decision here is vitally important because it has implications for, and indeed opens to question, all such selection processes.
From the founding of the country, those with the
power to select judges have used party affiliation or
support as a criterion for selecting or rejecting judicial nominees. John Marshall, “universally referred to
as ‘the great Chief Justice’” of this Court, was selected in that manner. See William H. Rehnquist, The
Supreme Court 103 (1987). He was nominated to fill a
vacancy created by the resignation of Chief Justice
Oliver Ellsworth in December 1800. “By then it already appeared that the election of 1800 had gone
against the Federalists, and John Adams felt a strong
need to put a dedicated Federalist on the bench be-

7
fore the government should come into the hands of
Jefferson and the Republicans.” Id.
Since then, Presidents have looked “almost entirely
to their own party for appointments to the federal
bench despite pleas from various quarters for bipartisan—or apolitical—appointment.” Tracey E. George,
Judicial Independence and the Ambiguity of Article
III Protections, 64 Ohio St. L.J. 221, 227 (2003). President Franklin Roosevelt “almost never looked outside the Democratic Party for judicial appointments.”
Id. “President Reagan appointed no Democrats to the
courts of appeals.” Vicki C. Jackson, Packages of Judicial Independence: The Selection and Tenure of Article III Judges, 95 Geo. L.J. 965, 978 n.47 (2007).
“From FDR’s first term through [President] Clinton’s
last, 91% of Democratic appointees have been Democrats and 92% of Republican appointees have been
Republicans.” George, supra, at 227.
Even when Presidents look outside their own party
for judicial nominees, they nevertheless often base
their decisions on the nominee’s party affiliation. For
example, President Truman nominated Republican
Senator Harold Burton to fill the vacancy created by
the retirement of the lone Republican Justice on the
Court whose other members had all been appointed
by Franklin Roosevelt, because there was
“[c]onsiderable public sentiment” that the “new justice ought to be a Republican.” Rehnquist, supra, at
86. And “[f]acing a Senate that was split down the
middle, and an impending election, President Herbert
Hoover, a Republican, decided to nominate a prominent Democrat,” Benjamin Cardozo, “to fill the seat
vacated by Justice Oliver Wendell Holmes.” Jonathan
H. Adler, The Senate Has No Constitutional Obligation to Consider Nominees, 24 Geo. Mason L. Rev. 15,
28 (2016).

8
These examples highlight the role of the Senate,
which has long “appreciated the patronage potential
of [its] Article II role in judicial appointments.”3
“There is a long history of Senate refusal to fill judicial vacancies, including by a simple refusal to consider Presidential nominees,” based on their party
affiliation. Adler, supra, at 26-27 (discussing instances where the Senate, controlled by Democrats, refused to take action on Republican Presidents’ nominees); see also, e.g., Jess Bravin, President Obama’s
Supreme Court Nomination of Merrick Garland Expires, Wall St. J. (Jan. 3, 2017) (discussing Republican-controlled Senate’s refusal to take action on the
Supreme Court nominee of a Democratic President).
State judges, too, are frequently selected based on
party affiliation. Supreme court justices in six states
are elected in partisan elections, where voters choose
judges from candidates affiliated with a political party.4 In two states, justices are selected by the legislature, which typically means that successful judicial
candidates must obtain the support of the majority
party.5 And twenty-seven states use some form of guGeorge, supra, at 234 (discussing role of “Senators, particularly from the President’s party” in influencing “the selection of
nominees to the lower federal courts”); see also, e.g., Sheldon
Goldman, Judicial Appointments to the United States Courts of
Appeals, 1967 Wis. L. Rev. 186, 189, 199-200 (1967) (same).
3

4 See Alicia Bannon, Brennan Ctr. for Justice, Choosing State
Judges: A Plan for Reform 3 (2018), https://www.brennancenter.
org/sites/default/files/publications/2018_09_JudicialSelection.pdf.

See Bannon, supra note 4, at 3; see also Douglas Keith &
Laila Robbins, Brennan Ctr. for Justice, Legislative Appointments for Judges: Lessons from South Carolina, Virginia, and
Rhode Island 3 (2017), https://www.brennancenter.org/sites/
default/files/analysis/North_Carolina.pdf (viable judicial candi5

9
bernatorial appointment system.6 In many of these
states, the governor must appoint someone from a list
of judicial candidates screened by an independent
nominating commission. See Bannon, supra note 4, at
3. But even there, governors often make selections
based on party affiliation and political support.7
All of these judicial selection procedures are threatened by the Third Circuit’s decision. The Third Circuit interpreted this Court’s precedents as allowing
selection based on political affiliation only for those
“employees whose jobs ‘cannot be performed effectively except by someone who shares the political beliefs
of [the appointing authority].’” Pet. App. 28a (alteration in original). Because the judicial branch is supposed to be independent of the political branches, id.
at 23a-24a, and because “[t]here can be no serious
dates in South Carolina must secure “commitments” from state
legislators, while “in Virginia, the majority party selects judges
in closed-door caucus meetings”).
6 In seventeen of these twenty-seven states, justices are appointed by the governor for a set term and must be re-elected in
single-candidate retention elections (in sixteen states) or partisan retention elections (in one state) to continue for additional
terms. Bannon, supra note 4, at 3. In the remaining ten states,
judges are appointed by the governor and not subject to retention elections. Id.

See Rachel Baye, Ctr. for Pub. Integrity, Donors, Friends
of Governors Often Get State Supreme Court Nod (May 19,
2014) https://publicintegrity.org/federal-politics/donors-friendsof-governors-often-get-state-supreme-court-nod. Even a leading
critic of the election of state court judges agrees that the judicial
selection process should be “publicly accountable,” and recommends a system in which judicial candidates are screened by an
“independent, bipartisan judicial nominating commission” and
then appointed by the governor who “may consider whatever
factors she wishes—judicial philosophy, political party membership, even personal friendship.” Bannon, supra note 4, at 6.
7

10
question that judicial candidates of different political
parties can effectively serve as state judges,” the
court held that “states cannot condition judicial positions on partisan political affiliation alone,” id. at
28a. That reasoning would apply equally to anyone
who aspired to a judicial appointment but was not
considered or appointed by a governor or President
who decided to nominate a candidate from another
political party. It would also apply to any judicial
candidate who was not elected because the voters
wanted a judge from a different political party.8
It is irrelevant that it is the Delaware Constitution—rather than the governor’s personal decision—
that requires consideration of the political party affiliation of a judicial nominee. The Third Circuit’s analysis does not distinguish these situations, and there
is no relevant distinction for First Amendment purposes. See Pet. App. 27a (disagreeing with the Sixth
Circuit in Newman v. Voinovich, which rejected a
First Amendment challenge to the Ohio “Governor’s
practice of considering only members of his party,”
986 F.2d 159, 163 (6th Cir. 1993)). In both situations,
the decision-maker for judicial appointments has excluded from consideration candidates for judicial office based on their political affiliation. And in both
instances, the decision-maker is a state actor subject
to the requirements of the Constitution, however
those requirements are construed in this setting.
Ironically, the Third Circuit’s decision bars Delaware’s constitutional process, which includes partisan considerations in
judicial appointments as a way of reducing partisanship in the
judiciary and shielding the judiciary from certain kinds of political influences, but fails to mention—let alone analyze the implications of its decision for—these overtly partisan judicial selection processes.
8

11
Under the Third Circuit’s analysis, all of these decisions are subject to First Amendment challenge, including potentially discovery into and litigation about
the decision-maker’s approach. See Newman, 986
F.2d at 160 (discussing testimony of Governor’s Special Assistant for Boards, Commissions and Judges
and stipulation of the Governor before trial); Kurowski v. Krajewski, 848 F.2d 767, 769 (7th Cir. 1988)
(discussing findings of magistrate judge after a bench
trial).
The importance of the First Amendment question,
infra pp. 14-17, thus provides a compelling case for
this Court’s review.
II. THE THIRD CIRCUIT FUNDAMENTALLY
MISUNDERSTOOD THIS COURT’S PRECEDENTS AND WRONGLY INVALIDATED
PROVISIONS OF THE DELAWARE CONSTITUTION THAT HAVE PRODUCED AN
EXCELLENT JUDICIARY.
This Court’s review is also warranted because the
Third Circuit fundamentally misunderstood this
Court’s First Amendment jurisprudence and failed to
respect Delaware’s sovereign authority to structure
its judiciary.
A. Delaware’s Political Balance Requirement Has Produced An Excellent Judiciary.
The Delaware Constitution has required a politically balanced judiciary since 1897. Pet. App. 3a-4a. The
adoption of this provision was no accident. It was the
considered response to the prior system in which
judges had been appointed by the governor for life,
without the need for confirmation by the Senate. See
Joseph T. Walsh & Thomas J. Fitzpatrick, Jr., Judiciary: Article IV, in THE DELAWARE CONSTITUTION OF

12
1897: THE FIRST ONE HUNDRED YEARS 130, 131 (Harvey Bernard Rubenstein ed., 1997). A few infirm
judges declined to retire, and there was debate in the
1897 Convention about how to improve the judiciary
and the judicial selection process. Id. at 132. Some
urged Delaware to follow the trend in other states at
that time and switch to an elected judiciary, which
would directly reflect the will of the people. Id. Others countered that qualified members of the bar
would not subject themselves to the election process,
and that elections would result in politically-oriented
judges. Id. Some urged the adoption of an appointive
system subject to Senate confirmation, while others
worried that there could be gridlock if the Senate
were controlled by a different political party. Id.
In the end, the Convention “adopted the system
that has endured to this day: appointment by the
governor for twelve-year terms subject to Senate confirmation.” Id. at 133. To this, the delegates added
the political balance requirement “in the face of the
widespread belief that every effort should be made to
ensure that the judiciary not be dominated by any political party.” Id. at 134.
As the Third Circuit acknowledged, this selection
process “has historically produced an excellent judiciary” in Delaware. Pet. App. 38a. The political balance
requirement means that the governor cannot “stack”
the judiciary with members of his own party, so the
senate feels less political pressure to reject the governor’s judicial nominees in times of divided government.
In amici’s experience, this selection system has depoliticized the issue of judicial appointments in Delaware. Because both major parties know that they
will have members on the judiciary, they have less
incentive to stake out partisan positions on the type

13
of judges they will appoint and to urge voters to vote
for a governor and senators who will select “their”
type of judges.
In addition, in amici’s view, the depoliticized nature
of the selection process has helped attract to the Delaware Bench quality lawyers who tend to be “a centrist group of jurists committed to the sound and
faithful application of the law.” Leo E. Strine, Jr., The
Delaware Way: How We Do Corporate Law and Some
of the New Challenges We (and Europe) Face, 30 Del.
J. Corp. L. 673, 683 (2005). Delaware is a small state,
with fewer than one million people and just three
counties. But the “independent and depoliticized judiciary” has led, “in [our] opinion, to Delaware’s international attractiveness as the incorporation domicile
of choice.” E. Norman Veasey with Christine T. Di
Guglielmo, What Happened in Delaware Corporate
Law and Governance from 1992-2004? A Retrospective on Some Key Developments, 153 U. Pa. L. Rev.
1399, 1402 (2005). It may well be the central reason
why more than half of the Fortune 500 companies
and half of the New York Stock Exchange corporations are incorporated in Delaware. See E. Norman
Veasey, The Drama of Judicial Branch Change in
This Century, 17 Del. Law. 4, 4 (1999).
In sum, the political balance requirement has endured for decades and across many political administrations in Delaware. In the view of amici, this
norm helps to further public confidence in the Delaware Supreme Court as a fair and impartial arbiter of
the law.

14
B. The Third Circuit Misunderstood Elrod
and Branti And Failed To Respect Delaware’s Sovereign Right To Establish
The Qualifications Of Its Judges.
Although the Third Circuit acknowledged Delaware’s constitutional judgment that the political balance requirement has been integral to the success of
the Delaware judiciary, it failed to accord the State’s
judgment any weight in the First Amendment analysis. See Pet. App. 39a-41a & n.5. This Court’s review
is warranted because that mode of analysis is flatly
inconsistent with Gregory, 501 U.S. at 463, which requires federal courts to apply “less exacting” scrutiny
to state constitutional provisions establishing the
qualifications of judges. As a result, the Third Circuit’s decision invalidated Delaware’s judgment with
respect to judicial selection in the State. In addition,
the decision fundamentally misunderstands this
Court’s First Amendment jurisprudence, in a manner
detrimental to judicial selection processes across the
Nation. See Pet. 27-36.
This Court has long held that “[e]ach State has the
power to prescribe the qualifications of its officers
and the manner in which they shall be chosen.” Gregory, 501 U.S. at 462 (alteration in original) (quoting
Sugarman v. Dougall, 413 U.S. 634, 647 (1973) (quoting Boyd v. Neb. ex rel. Thayer, 143 U.S. 135, 161
(1892))). A state constitutional provision establishing
the qualifications of state judges is a constitutional
provision “of the most fundamental sort for a sovereign entity. Through the structure of its government,
and the character of those who exercise government
authority, a State defines itself as a sovereign.” Id. at
460. A State’s power to prescribe the qualifications of
judges is therefore “exclusive, and free from external
interference, except so far as plainly provided by the

15
Constitution of the United States.” Id. (quoting Taylor v. Beckham, 178 U.S. 548, 570-71 (1900)).
The First Amendment does not prohibit Delaware
from considering a judicial candidate’s party affiliation as a condition of appointment for the salutary
purpose of ensuring a politically-balanced judiciary.
In holding otherwise, the Third Circuit erroneously
applied the “policymaking exception” developed in Elrod and Branti to address when it is permissible to
consider party affiliation in filling positions in the executive and legislative branches without recognizing
that the selection of judges involves significantly different considerations.
To be sure, as the Third Circuit stated, the judiciary is a separate branch of government that is independent of the executive and legislative branches in
Delaware, Pet. App. 24a, as in other states and the
federal government. Moreover, there is “no serious
question that judicial candidates of different political
parties can effectively serve as state judges.” Id. at
28a. But neither of those facts means that States may
not select judges based on “partisan political affiliation.” Id. This Court’s cases, history and common
sense demonstrate that Presidents, governors, legislators, and electorates may chose judges based on
their political affiliation and thereafter judges may
fulfill their judicial role in an independent and nonpartisan manner.
As the Seventh Circuit explained, “[n]either Elrod
nor Branti makes anything turn on the relation between the job in question and the implementation of
the appointing officer’s policies.” Kurowski, 848 F.2d
at 770. For example, the job of an election judge is to
ensure the fair administration of the election laws,
not to implement the partisan policies of the appointing official. This Court nevertheless said in Branti

16
that the “position may be appropriately considered
political,” because the State could decide to have a
precinct supervised by two judges from different parties, and then “party affiliation” would be an “appropriate requirement” for the position. Branti, 445 U.S.
at 518. This reasoning applies with full force to judicial selection.
In holding that party affiliation cannot be an appropriate qualification for a judge, the Third Circuit
entirely ignored the long history and tradition of selecting federal and state court judges based on party
affiliation and support. See supra, Part I. That itself
is reason to question the court’s conclusion, for “a
practice that was accepted by the Framers and has
withstood the critical scrutiny of time and political
change” is likely to be constitutional. Town of Greece
v. Galloway, 134 S. Ct. 1811, 1819 (2014) (Establishment Clause). See also, e.g., Burson v. Freeman, 504
U.S. 191, 206 (1992) (plurality opinion) (deferring to
the “widespread and time-tested consensus” that a
prohibition on political speech and campaigning
around polling booths is necessary to prevent “voter
intimidation and election fraud”); id. at 214 (Scalia,
J., concurring in the judgment) (refusing to invalidate
restrictions that are a “venerable” part “of the American tradition”); Mistretta v. United States, 488 U.S.
361, 398-399 & n.22 (1988) (“contemporaneous practice by the Founders themselves is significant evidence” that it is consistent with the separation of
powers).
Had the court considered this historical practice,
moreover, it would have realized that the selection of
judges on partisan grounds is a permissible byproduct of the Founders’ choice in the U.S. Constitution,
which was replicated in varying ways in state constitutions. Specifically, the Founders chose to make the

17
judiciary accountable to the people as well as independent of the other branches. Courts are independent of the other branches and “of popular opinion
when deciding the particular cases or controversies
that come before them.” Rehnquist, supra, at 236.
However, the constitutional system is designed to
give the people some say in the selection of judges,
id., either indirectly (through election of the officials
who appoint and confirm judges), or directly (through
election of judges themselves).
The fact that the public receives a say in the selection of judges supports the Sixth and Seventh Circuit’s conclusion that judges “mak[e] on the state’s
behalf the sort of decisions about which there are political debates.” Newman, 986 F.2d at 163 (quoting
Kurowski, 848 F.2d at 770). And given that important
decision-making role, the “office has a political component,” and individuals who appoint judges and voters who select them may base their decisions on the
judge’s political affiliation “without violating the First
Amendment.” Kurowski, 848 F.2d at 770.
For these reasons, the Third Circuit’s decision is
both wrong and important. If allowed to stand, it will
render numerous judicial selection processes vulnerable to challenge by aspiring judges who were not
considered because of their party affiliation. The
First Amendment does not require that ahistorical,
disruptive outcome.

18
CONCLUSION
The petition should be granted.
Respectfully submitted,
VIRGINIA A. SEITZ*
KATHLEEN MORIARTY MUELLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
vseitz@sidley.com
Counsel for Amici Curiae
October 7, 2019

* Counsel of Record

